HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug
Rebate Program in Arkansas," (A-06-07-00015)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in Arkansas," (A-06-07-00015)
November 27, 2007
Complete Text of Report is available in PDF format (784 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to
determine whether the State agency had (1) implemented the recommendations made
in our previous audit of the Arkansas drug rebate program and (2) established
controls over collecting rebates on single source drugs administered by
physicians.
The State agency implemented the recommendations from our
prior audit that related to interest payments received from manufacturers, with
one exception:  It did not implement a procedure for verifying the accuracy of
interest payments received from manufacturers. The State agency established
controls over collecting rebates on single source drugs administered by
physicians.
We reiterated our
recommendation that the State agency implement a procedure to ensure that
interest payments are verified for accuracy.  The
State agency agreed with our finding and said that it would put procedures for
verifying interest in writing.  The State agency also said that it was verifying
current and past interest payments.